         AUDIT REPORT
        U.S. Fish and Wildlife Service
 Federal Assistance Grants Administered by
    the State of Alabama, Department of
Conservation and Natural Resources, Wildlife
and Freshwater Fisheries Division and Marine
  Resources Division from October 1, 2002,
        through September 30, 2004




          Report No. R-GR-FWS-0002-2005
                       SEPTEMBER 2005
                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191


                                                                               September 7, 2005

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Alabama, Department of Conservation and
           Natural Resources, Wildlife and Freshwater Fisheries Division and Marine Resources
           Division, from October 1, 2002, through September 30, 2004 (No. R-GR-FWS-0002-
           2005)

        This report presents the results of our audit of outlays reported by the State of Alabama,
Department of Conservation and Natural Resources (Department), Wildlife and Freshwater
Fisheries Division (Wildlife and Fisheries) and Marine Resources Division (Marine Resources),
under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit
included reported outlays that totaled approximately $23.8 million on FWS grants that were open
during the State’s fiscal years ended September 30, 2003 and 2004 (see Appendix 1). The audit
also covered the Divisions’ compliance with applicable laws, regulations, and FWS guidelines,
including those related to the collection and use of State fishing and hunting license revenues and
the reporting of program income.

       We found that Wildlife and Fisheries did not report program income on the correct form,
and did not report the interest earned on that income during the grant period.

       FWS Region 4 provided a response to the draft of this report on August 4, 2005, which
included the Department’s July 18, 2005 response to FWS. The FWS and Department responses
generally concurred with the audit findings and recommendations, but included suggested
changes to the report. Based on the responses, we clarified the finding on program income and
modified the report to incorporate the interest amounts computed by the Department and correct
minor errors. We summarized the FWS and Department responses after the recommendations
and added our comments regarding the responses. The status of the recommendations is
summarized in Appendix 3.
        In accordance with Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by December 6, 2005. Your
response should include the information requested in Appendix 3. If you have any questions
regarding this report, please contact Mr. Lawrence Kopas, Audit Team Leader, or me at (703)
487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                               2
                                                 Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their
wildlife and sport fish programs. The Acts provide for FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the
state’s fish and game department.

Scope, Objective, and Methodology
We conducted our audit at the Alabama Department of Conservation and Natural Resources
(Department) offices in Montgomery, the Wildlife and Freshwater Fisheries Division (Wildlife
and Fisheries) headquarters in Montgomery, and the Marine Resources Division (Marine
Resources) headquarters at Dauphin Island. The audit included reported outlays that totaled
approximately $23.8 million on 49 of the 51 2 FWS grants that were open during the State’s fiscal
years (SFY) ended September 30, 2003 and 2004 (see Appendix 1). We also visited three
district offices, one fish hatchery, and two Marine Resources offices (see Appendix 2). The
objective of our audit was to determine:

                ¾ the adequacy of the Divisions’ accounting systems and related internal controls;
                ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                  Federal Assistance grant agreements with FWS;
                ¾ the accuracy and reliability of Wildlife and Fisheries’ hunting and fishing license
                  fees collection, certification, and disbursement processes;
                ¾ the adequacy of the Divisions’ asset management systems and related internal
                  controls with regard to purchasing, control, and disposal; and
                ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                  requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Divisions
to the grants, interviews with employees to ensure that personnel costs charged to the grants
were supportable, and a review of Wildlife and Fisheries use of hunting and fishing license

1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively.
2
    There were no outlays on 2 of the 51 grants during the audit period.

                                                            3
revenues to determine whether the revenues were used only for fish and wildlife program
purposes. We relied on the work performed by the Alabama Department of Examiners of
Public Accounts (State auditors) on the State Single Audit for SFY 2003 to the extent possible
in order to avoid a duplication of effort. At the time of our fieldwork, the State auditors had not
completed fieldwork on the Single Audit for SFY 2004.

Based on our review of the audit work of the State auditors, we were able to reduce the amount
of our internal control testing and other audit work for the accounting, purchasing, and labor
reporting systems. In addition, we were able to reduce our audit work for grant compliance and
expenditure testing, license certifications, drawdowns, license revenue, program income, assent
legislation, real property management, equipment management, and in-kind contributions.
Therefore, our review covered primarily SFY 2004. We did not evaluate the economy,
efficiency, or effectiveness of the Divisions’ operations.

At the time of our review, FWS granted the Department an extension until March 31, 2005, for
submitting the annual Financial Status Reports for the SFY 2004 grants. Our review of
expenditures for SFY 2004 was based on the information in the Divisions’ drawdown records.

Prior Audit Coverage
On July 17, 2002, we issued a memorandum to FWS on the “Results of Agreed-Upon
Procedures Review of Costs Claimed by the State of Alabama Department of Conservation and
Natural Resources, Division of Wildlife and Freshwater Fisheries and Division of Marine
Resources, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from October 1,
1998 through September 30, 2000.” The memorandum stated that the prior audit agency had not
completed its audit work in the areas of purchasing, labor recording, asset management, and
testing of costs claimed for reimbursement to determine whether the costs were incurred in
accordance with the grant agreements. We reviewed the memorandum, followed up on the two
findings, and determined they had been resolved prior to our review. In addition, the State
auditors issued a Single Audit report on the State of Alabama for SFY 2003 in which the Sport
Fish and Wildlife Restoration programs were audited as major programs. The report did not
identity any findings regarding Federal Assistance grants or license fees or the State’s fish and
wildlife programs.




                                                 4
                                          Results of Audit

We found that:

        ¾ The accounting system used by both Wildlife and Fisheries and Marine Resources
          was adequate to account for grant and license fee receipts and disbursements.
        ¾ The asset management system used by both divisions and related internal controls
          with regard to purchasing, control, and disposal of assets was adequate.
        ¾ The Wildlife and Fisheries hunting and fishing license fees collection and
          disbursement processes were adequate and reliable.
        ¾ The Wildlife and Fisheries license certification process was adequate and reliable.
        ¾ The State had adequate assent legislation in place to prohibit the use of license
          revenues for any purpose other than the administration of the Department’s game and
          fish activities.

However, we also found that while Wildlife and Fisheries identified program income on its
annual performance reports, it did not report this program income on its Financial Status Reports
(SF 269). In addition, Wildlife and Fisheries did not report interest earned on this program
income.


A. Program Income
Although the Department reported program income totaling $865,729 on its annual performance
reports, it did not include all program income on its Financial Status Reports (SF 269).
According to the performance reports, the Department received $850,951 from a timber lease
and the sale of timber, $13,338 from Farm Services payments, and $1,440 from the sale of
replacement cards that were produced under the Hunter Education grants. 3

                                                             Grant No.
                 Source              W-34-50         W-34-51    W-1-31           W-1-32        Total
          Timber Sales               $682,646       $168,305                                 $850,951
          Farm Services                 5,950          7,388                                   13,338
          Replacement Cards                                     $1,220             $220         1,440
          Totals                     $688,596       $175,693    $1,220             $220      $865,729



3
  The performance reports also identified, as program income, refunds, and reimbursements totaling $321 for grant
Nos. W-34-50 ($245) and W-34-51 ($76). We did not include these amounts in the table because according to the
regulations (43 CFR § 12.65 (a)) refunds are not considered program income.

                                                        5
Title 43 CFR § 12.65 (b) defines program income as “gross income received by the grantee or
subgrantee directly generated by a grant supported activity, or earned only as a result of the grant
agreement during the grant period.” Regarding the use of program income, 43 CFR § 12.65 (g)
states:

           “Ordinarily, program income shall be deducted from total allowable costs to determine
           the net allowable costs [deductive method]. Program income shall be used for current
           costs unless the Federal agency authorizes otherwise…When authorized, program income
           may be added to the funds committed to the grant agreement by the Federal agency and
           the grantee [addition method] … [or] used to meet the cost sharing or matching
           requirement of the grant agreement.”

FWS authorized the Department to use the addition method to dispose of program income and
defer the disposition of this income. The receipts were deposited into the Capital Outlays
Account in the Department’s Game and Fish Fund (Fund), an interest-bearing fund, where they
were commingled with license fees and other revenues and retained until the opportunity arose to
acquire land for its fish and wildlife programs. At such time, FWS would award the Department
a grant for the specific acquisition, funded entirely with the program income revenues.

The U.S. Fish and Wildlife Service Manual (522 FW 1.23) requires states to submit an annual
Financial Status Report (SF 269) not later than 90 days after the expiration date of the grant
agreement unless a request for extension has been approved. FWS also requires the states to
identify estimated program income on the grant application and agreement and report actual
program income on the SF 269.

The Department reported revenues totaling $689,816 4 as program income for 2003 on its
performance report for grant No. W-34-50, but did not report these revenues as program income
on the SF 269s. The amount reported on the SF 269s should have included $688,596 for grant
No. W-34-50 and $1,220 for grant No. W-1-31.

In January 2005, we notified FWS and the Department of this issue and recommended that FWS
require the Department to (a) adopt procedures to report program income from timber sales on
the SF 269 and track timber sales revenues deposited into the Fund’s Capital Outlays Account
and (b) report program income of $688,596 for grant No.W-34-50, and $175,693 for grant No.
W-34-51on the respective SF 269s. FWS and the Department agreed with our finding and
recommendations, and prior to our exit conference, the Department submitted a revised SF 269
for grant No. W-34-50, which properly identified the revenues as undisbursed program income.
The Department also agreed to report program income of $175,693 on the final SF 269 for grant
No.W-34-51, which was not yet due at the completion of our audit (FWS had granted an
extension).




4
    Does not include refunds and reimbursements totaling $245 that were reported as program income.

                                                          6
We also found that the Department did not report the interest earned during the grant period on
the program income deposited into the Fund. The Department earned interest totaling $6,257 on
grant Nos. W-34-50 ($4,356) and W-34-51 ($1,901). The Department earned a negligible
amount of interest on grant Nos. W-1-31 and W-1-32.

       Recommendations

       We recommend that FWS:

       1. Ensure that the Department properly reports the $175,913 of program income on its
          final SF 269s for grant Nos. W-34-51 ($175,693) and W-1-32 ($220).

       2. Require the Department to develop written procedures for (a) ensuring that program
          income is properly reported on the SF 269s, and (b) reporting the status and use of
          revenues deposited into the Capital Outlays Account of the Game and Fish Fund
          along with the SF 269.

       3   Ensure the Department reports program income of $4,356 for grant No. W-34-D-50
           and $1,901 for grant No. W-34-D-51 on the respective SF 269s for the interest earned
           during the grant periods on the revenues deposited in the Capital Outlays Account.

       Department Response
       The Department’s response included general comments on the finding in addition to the
       comments on the recommendations.

               General Comments. The Department stated that it does not agree that not all
       program income was reported since the income was identified in its annual performance
       reports to FWS. It agreed, however, that it should have reported this income on the
       SF 269s. The Department expressed concern that, “Read alone, without the follow-up
       information presented in this report, it would appear the [FWS] was unaware of the
       program income,” and suggested that the report be reworded to more accurately reflect
       the reporting issue.

       We believe the finding in the draft report, when read in total, clearly noted that the
       Department had reported the program income on its performance reports to FWS.
       However, we have modified the finding to clarify the circumstances.

             Comments on Recommendations. The Department’s comments on the
       recommendations are summarized below.

       The Department agreed with Recommendation 1 but disagreed with the dollar amounts to
       be reported as program income. The Department stated that it had reported additional
       income of $321 from refunds and reimbursements, and suggested that we revise the
       report to reflect this additional income. The Department’s response included copies of the

                                                 7
revised SF 269s submitted to FWS, which include program income. The Department
also stated that the program income from the replacement cards was attributed in the
report to the wrong Hunter Education grants.

The Department agreed with Recommendation 2 and has developed written procedures
for the accounting and reporting of program income, and has provided those procedures
to FWS.

The Department also agreed with Recommendation 3, but did not agree with the interest
amounts shown in the report. The Department recomputed the interest on program
income for SFYs 2003 and 2004 and included these amounts on its revised SF 269s.

FWS Response
FWS stated that it concurred with the recommendations, but agreed with the Department
that the report should be revised to include program income from refunds and
reimbursements, the revised interest amounts computed by the Department, and the
correct grant numbers for the income derived from the replacement cards under the
Hunter Education program.

OIG Response
Regarding Recommendation 1, the regulations (43 CFR 12.65 (a)) state that refunds are
not considered program income, and the SF 269 form indicates that “refund, rebates, etc.”
should be reported as an offset to reported outlays. Therefore, we did not revise the
report to include refunds and reimbursements. However, since the Department did not
report the $321 as an offset, has already reported this amount as program income on the
SF 269s, and the amount is immaterial, we do not believe that any further action is
needed.

Regarding Recommendation 2, FWS should determine whether the Department’s new
procedures for reporting and accounting for program income are adequate.

Regarding Recommendation 3, we agree with the Department’s interest computations
and have revised the report to include these amounts.

Although FWS stated that it concurred with the recommendations, it also stated that the
State’s response “will be considered in the Corrective Action Plan.” Therefore,
additional information is needed on the actions taken or planned to resolve the finding
and to implement the recommendations. This information should be included in the
corrective action plan.




                                        8
                                                 Appendix 1


 ALABAMA DEPARTMENT OF CONSERVATION AND NATURAL
RESOURCES, WILDLIFE AND FRESHWATER FISHERIES DIVISION
           AND MARINE RESOURCES DIVISION
      FINANCIAL SUMMARY OF REVIEW COVERAGE
      OCTOBER 1, 2002 THROUGH SEPTEMBER 30, 2004

           WILDLIFE AND FRESHWATER FISHERIES

                          Grant       Reported
           Grant No.     Amount        Outlays

           F-18-39        $12,000      $12,000
           F-18-40         12,000       12,000
           F-18-41         12,000            0
           F-35-30        733,500      833,353
           F-35-31        700,000      803,659
           F-37-30        580,000      640,667
           F-37-31        580,000      587,428
           F-38-30        580,000      660,953
           F-38-31        650,000      640,858
           F-39-30        360,000      385,207
           F-39-31        380,000      378,658
           F-40-30        511,928      383,808
           F-40-31        390,788      274,526
           F-41-30        680,000      693,973
           F-41-31        600,000      587,056
           F-46-18        694,276      620,091
           F-46-19        665,000      567,950
           F-50-15        200,000      128,608
           F-50-16        300,000      114,575
           F-54-14        180,000      260,891
           F-54-15        218,000      247,967
           W-1-31         480,000      482,716
           W-1-32         480,000      474,247
           W-8-61         400,000      383,939
           W-8-62         400,000      448,439
           W-34-50      3,404,000    3,248,059
           W-34-51      3,316,000    3,170,743


                           9
                                               Appendix 1

WILDLIFE AND FRESHWATER FISHERIES

                      Grant        Reported
Grant No.            Amount         Outlays

W-35-50              245,000         275,470
W-35-51              248,000         228,700
W-39-46               12,120          12,120
W-39-47               12,120          12,120
W-39-48               12,120               0
W-44-28               52,244          38,954
W-44-29               54,244          40,683
W-47-13               75,000          68,385
W-48-19               62,000          57,256
W-48-20               69,300          39,440
W-49-18              166,000         168,466
W-49-19              130,000         137,867
W-53-11              468,000         474,704
W-53-12              472,000         518,086
W-60-2               172,000         188,681
W-60-3                86,000          84,573
W-61-3             1,143,000       1,128,998
W-62-1                72,052          84,888
   Subtotal      $21,070,692     $20,601,762

              MARINE RESOURCES

                      Grant         Reported
Grant No.            Amount         Outlays
F-51-16             $150,000        $148,224
F-51-17               150,000        130,529
F-52-13               400,000        225,980
F-52-14               300,000         22,417
F-101-10           1,450,000         957,991
F-101-11           1,450,000       1,729,797
   Subtotal       $3,900,000      $3,214,938

    Total         $24,970,692    $23,816,700



                      10
                                                                   Appendix 2


ALABAMA DEPARTMENT OF CONSERVATION AND NATURAL
  RESOURCES, WILDLIFE AND FRESHWATER FISHERIES
     DIVISION AND MARINE RESOURCES DIVISION
                   SITES VISITED

                          HEADQUARTERS
    Department of Conservation and Natural Resources, Montgomery, AL
             Marine Resources Division, Dauphin Island, AL
       Wildlife and Freshwater Fisheries Division, Montgomery, AL


       WILDLIFE AND FRESHWATER FISHERIES DIVISION
                    District 1, Tanner, AL
                       Wildlife Section
                       Fisheries Section
                   Law Enforcement Section

                                District 2
                    Wildlife Section, Jacksonville, AL
                    Fisheries Section, Eastaboga, AL

                      District 5, Spanish Fort, AL
                            Wildlife Section
                            Fisheries Section
                       Law Enforcement Section

                     Fish Hatchery, Eastaboga, AL
                        Eastaboga Fish Hatchery



                  MARINE RESOURCES DIVISION
                Dauphin Island Office, Dauphin Island, AL
                  Gulf Shores Office, Gulf Shores, AL




                                   11
                                                                        Appendix 3



                    ALABAMA DEPARTMENT OF
              CONSERVATION AND NATURAL RESOURCES
                    STATUS OF AUDIT FINDINGS
                     AND RECOMMENDATIONS



 Recommendation            Status                     Action Required

A.1 and A.2        Management Concurs;      Provide a corrective action plan that
                   Additional Information   identifies the actions taken or planned to
                   Needed                   resolve the finding and implement the
                                            recommendations, as well as the basis for
                                            disagreement with any recommendations.
                                            The plan should also include the target
                                            date and the official responsible for
                                            implementation of each recommendation.
                                            The unimplemented recommendations
                                            remaining at the end of 90 days (after
                                            December 6, 2005) will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget, for resolution
                                            and/or tracking of implementation.

A.3                Finding Resolved and     No further action is necessary.
                   Recommendation
                   Implemented




                                      12
